COMMONWEALTH OF PENNSYLVANIA

OFFICE OF ATTORNEY GENERAL
1600 ARCH STREET
SUITE 300
PHILADELPHIA, PA 19103

JOSH SHAPIRO
ATTORNEY GENERAL

February 21, 2020
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Little Sisters of the Poor v. Pennsylvania, et al., No. 19-431
Donald J. Trump, President of the United States, et al. v. Pennsylvania,
et al., No. 19-454

Dear Mr. Harris,
Pursuant to Supreme Court Rule 37.3(a), respondents Pennsylvania and New
Jersey hereby consent to the filing of amicus curiae briefs in support of either party
or neither party in the above-captioned cases.
Respectfully submitted,

Michael J. Fischer
Counsel of Record for Respondents
cc: Counsel of record

